No 20A131
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DUSTIN JOHN HIGGS AND COREY JOHNSON, APPLICANTS
v.
JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL, ET AL.
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION TO VACATE STAY OF EXECUTION ISSUED BY THE UNITED
STATES COURT APPEALS FOR THE FOURTH CIRCUIT, via email this 14th day of
January 2021.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 14, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

SERVICE LIST:
20A131DUSTIN JOHN HIGGS AND COREY JOHNSON V. JEFFREY A. ROSEN,
ACTING ATTORNEY GENERAL, ET AL.
SHAWN NOLAN
MATTHEW LAWRY
ALEX KURSMAN
FEDERAL COMMUNITY DEFENDER OFFICE
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
601 WALNUT STREET
PHILADELPHIA, PA 19106
215-928-0520
MATTHEW_LAWRY@FD.ORG
SHAWN_NOLAN@FD.ORG
ALEX_KURSMAN@FD.ORG
DONALD P. SALZMAN
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 NEW YORK AVE, NW
WASHINGTON, DC 20005-2111
202-371-7983
DONALD.SALZMAN@SKADDEN.COM

